No. 19-7
IN THE

Supreme Court of the United States
SEILA LAW LLC,
V.

Petitioner,

CONSUMER FINANCIAL PROTECTION BUREAU,

Respondent.
CERTIFICATE OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this twenty-second day of January 2020, I have served three
(3) true copies of the Brief for National Consumer Law Center, Center
for Consumer Law and Education, Center for Consumer Law and
Economic Justice, Housing Clinic of Jerome N. Frank Legal Services
Organization at Yale Law School, Consumer Action, and Professor
Craig Cowie as Amici Curiae in Support of Amicus Curiae Paul D.
Clement, Esq. by priority mail, postage prepaid, addressed as follows:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel of Record for Petitioner Seila Law LLC
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217
Counsel of Record for Respondent Consumer
Financial Protection Bureau

1

Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com
(202) 389-5000
Counsel of Record for Court-appointed amicus curiae in support
of the judgment below on the question presented by the petition
Signed under the pains and penalties of perjury,

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires:
May 30, 2025

2

